Case: 20-56105, 02/15/2021, ID: 12003320, DktEntry: 34-4, Page 1 of 3
1

IN THE SUPREME COURT OF THE UNITED STATES
ALAN DOUGLAS,
Petitioner - Appellant,
vs.

Writ of Cert to USCA 9th Cir on COA
Medical Malpractice Injury
Res Ipsa Loquitur

USSC No.:

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
Respondent-Appellee,

US District Court
D.C. No.: 2:20-cv-07524-RSWL-AS
Sup Ct CA No.: S265908
2nd District Court of Appeal-CA
No. B294801

Los Angeles County
Super. Ct. Cases No.
BC657529/BC696685
On Petition for a WRIT of Certiorari to USCA 9th Circuit No 20-56105
PROOF OF SERVICE
I, Alan Douglas, declare that on this date, 1st day of February 2021
as required by Supreme Court Rule 29, 1 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI to The Clerk of
Supreme Court of the United States by depositing an envelope containing the above documents in the
United States Postal Service [USPS] mail properly addressed with first-class postage prepaid for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
[1] To the Clerk of Supreme Court of the United States, Washington DC 20543-USPS Mail;
[2] [2]USCA 9* Circuit - e File to Docket Sheet Case 20-56105
[3] US District Court 0973-2 - email
Email: as chambers@cacd.uscourts.gov
Attn.: Hon. Ronald S.W. Lew, US District Judge
United States District Court-Court Central District of California (Western
[4] The Superior Court of California, County of Los Angeles
Stanley Mosk Courthouse - eFiling
111 N. Hills St., Los Angeles, CA 90012
Attn.: Hon. Willian F. Fahey - Dept.69 Email: publicinfo@lacourt.org
Attn.: Sherri R. Carter-Executive Officer/Clerk Email: CourtCounsel@lacourt.org
Attn.: Frederick Bennett- Court Counsels for LASC cc: fbennett@lacourt.org
Dated: Feb. 15,2021
Los Angeles, CA

Signed by^
Alan Douglas, Pro Si

Alan Douglas v. Superior Court of California, County of Los Angeles
In the Supreme Court of the United States - Writ of Certiorari to USCA 9th Circuit on COA Case 20-56105

Case: 20-56105, 02/15/2021, ID: 12003320, DktEntry: 34-4, Page 2 of 3
2

PROOF OF SERVICE
Petition for a WRIT of Certiorari to USCA 9th Circuit No 20-56105
COURT OF APPEAL Case Number: B294801

Alan Douglas v. Superior Court of California, County of Los Angeles
In the Supreme Court of the United States - Writ of Certiorari to USCA 9th Circuit on COA Case 20-56105

Case: 20-56105, 02/15/2021, ID: 12003320, DktEntry: 34-4, Page 3 of 3
3

DOUGLAS vs. TIMOTHY J. DASKIVICH, MD LAC-SC Case No.: BC657529
DOUGLAS vs. ZIMMERMAN et all LAC-SC Case No.: BC696685
LIST OF SERVICE

[1] To the Clerk of Supreme Court of the United States, Washington DC 20543-US Mail;

[2]USCA 9th Circuit - e File to Docket Sheet Case 20-56105

[3] US District Court 0973-2 - email
Email: as chambers@,cacd.uscourts.gov
Attn.: Hon. Ronald S.W. Lew, US District Judge
_____ United States District Court-Court Central District of California (Western Division)
[4] The Superior Court of California, County of Los Angeles
Stanley Mosk Courthouse - eFiling
111 N. Hills St., Los Angeles, CA 90012
Attn.: Hon. William F. Fahey - Dept. 69 publicinfo@lacourt.org
Attn.: Sherri R. Carter-Executive Officer/Clerk CourtCounsel@lacourt.org
Attn.: Frederick Bennett- Court Counsels for LASC cc: fbennett@lacourt.org

Alan Douglas v. Superior Court of California, County of Los Angeles
In the Supreme Court of the United States - Writ of Certiorari to USCA 9th Circuit on COA Case 20-56105

https://outlook.live.eom/mail/0/inbox/id/AQMkADAwATYOMDA...

Firefox

20-56105 Alan Douglas v. Superior Court of California, "Answer to Original
Petition"
ca9_ecfnoticing@ca9.uscourts.gov <ca9_ecfnoticing@ca9.uscourts.gov>
Mon 2/15/2021 9:25 PM
To: ad47usa@hotmail.com <ad47usa@hotmail.com>

NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive
one free electronic copy of all documents filed electronically, if receipt is required by law
or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing.
United States Court of Appeals for the Ninth Circuit
Notice of Docket Activity
The following transaction was entered on 02/15/2021 at 9:24:58 PM PST and filed on
02/15/2021
Case Name:
Alan Douglas v. Superior Court of California,
Case Number: 20-56105
Document(s): Document(s)
Docket Text:
Filed (ECF) Appellant Alan Douglas answer to Original Habeas petition. Date of service:
02/15/2021. [12003320] [20-56105] (Douglas, Alan)
Notice will be electronically mailed to:
Alan Douglas: ad47usa@hotmail.com
The following document(s) are associated with this transaction:
Document Description: Main Document
Original Filename: [1] Petition for Writ of Certiorari to USCA 9th Circuit on COA 1PetWC9COA
21521.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1106763461 [Date=02/15/2021] [FileNumber=12003320-0]
[49c03bdf72945902cd808a79ad9b70eef5fa2d7c1929c181885e87a9557affe0749b62cf27de4
19ad98d98647c94890c876fff35a86b2fb3bd97c7ddcccf8f47]]
Document Description: Additional Document
Original Filename: [2] MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS PWC-COA 9th
Circuit IMotlFPCOA 21521.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1106763461 [Date=02/15/2021] [FileNumber=12003320-1]
[5df2792bd0438427b6ec6eee4a8ec97107d335283834a1e1b0fd64c1becf9f8c9b34b994ef48
828cbdcece81ec82848477e78f16f05b9720ca3ea09518db5989]]

1 of 2

2/15/21,10:10 PM

Firefox

https ://outlook .live .com/mail/O/inbox/id/AQMkADAwAT YOMDA...

Document Description: Additional Document
Original Filename: [3] APPENDIX - to Support Petition for Wreit of Certiorari to USCA 9th
Circuit 2151211AppPWC9COA 21521.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1106763461 [Date=02/15/2021] [FileNumber=12003320-2]
[9bfc00e234017e77cfc98518b997860a4542c8eba49c538d733d372901d466e61c1486b21db
bc81ef16be509aa2bd120c8b8e5f7b30cfd00aeb021f3b7f7412f]]
Document Description: Additional Document
Original Filename: [4] Proof of Service -Writ of Certiorari to USCA 9th Circuit IProofWC
21521.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1106763461 [Date=02/15/2021] [FileNumber=12003320-3]

[5dd59bafc79c28cc62c9ca0f34aab7f8ce21d6300c62e963d97051771dc9232e39f0ebe21587f
b3cdc5a359906d4b0768eea9e6099a78ba0803c3ab95b528864]]

2 of 2

2/15/21,10:10 PM

https://outlook.live.eom/mail/0/sentitems/id/AQMkADAwATYOM...

Firefox

Fw: 20-56105 Alan Douglas v. Superior Court of California, "Answer to Original
Petition"
Alan Douglas <ad47usa@hotmail.com>
Mon 2/15/2021 10:14 PM
To: as_chambers@cacd.uscourts.gov <as_chambers@cacd.uscourts.gov>; publicinfo@lacourt.org
<publicinfo@lacourt.org>; CourtCounsel@lacourt.org <CourtCounsel@lacourt.org>; fbennett@lacourt.org
<fbennett@lacourt.org>

From: ca9_ecfnoticing@ca9.uscourts.gov <ca9_ecfnoticing@ca9.uscourts.gov>
Sent: Monday, February 15, 2021 9:24 PM
To: ad47usa@hotmail.com <ad47usa@hotmail.com>
Subject: 20-56105 Alan Douglas v. Superior Court of California, "Answer to Original Petition"

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive
one free electronic copy of all documents filed electronically, if receipt is required by law
or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing.
United States Court of Appeals for the Ninth Circuit
Notice of Docket Activity
The following transaction was entered on 02/15/2021 at 9:24:58 PM PST and filed on
02/15/2021
Case Name:
Alan Douglas v. Superior Court of California,
Case Number: 20-56105
Document(s):

Document(s)

Docket Text:
Filed (ECF) Appellant Alan Douglas answer to Original Habeas petition. Date of service:
02/15/2021. [12003320] [20-56105] (Douglas, Alan)
Notice will be electronically mailed to:
Alan Douglas: ad47usa@hotmail.com

The following document(s) are associated with this transaction:
Document Description: Main Document
Original Filename: [1] Petition for Writ of Certiorari to USCA 9th Circuit on COA 1PetWC9COA
21521.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1106763461 [Date=02/15/2021] [FileNumber=12003320-0]
{49c03bdf72945902cd808a79ad9b70eef5fa2d7c1929c181885e87a9557affe0749b62cf27de4
19ad98d98647c94890c876fff35a86b2fb3bd97c7ddcccf8f47]]
Document Description: Additional Document
Original Filename: [2] MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS PWC-COA 9th

1 of 2

2/15/21,10:14 PM

Firefox

https://outlook.live .com/mai 1/0/sentitems/id/AQMkADAwATYOM...

Circuit IMotlFPCOA 21521.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=T106763461 [Date=02/15/2021] [FileNumber=12003320-1]
[5df2792bd0438427b6ec6eee4a8ec97107d335283834a1e1b0fd64c1becf9f8c9b34b994ef48
828cbdcece81ec82848477e78f16f05b9720ca3ea09518db5989]]
Document Description: Additional Document
Original Filename: [3] APPENDIX - to Support Petition for Wreit of Certiorari to USCA 9th
Circuit 2151211AppPWC9C0A 21521.pdf
Electronic Document Stamp:
[STAMP acecfStampJD=1106763461 [Date=02/15/2021] [FileNumber=12003320-2]
[9bfc00e234017e77cfc98518b997860a4542c8eba49c538d733d372901d466e61c1486b21db
bc81ef16be509aa2bd120c8b8e5f7b30cfd00aeb021f3b7f7412f]]
Document Description: Additional Document
Original Filename: [4] Proof of Service -Writ of Certiorari to USCA 9th Circuit IProofWC
21521.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1106763461 [Date=02/15/2021] [FileNumber=12003320-3]

[5dd59bafc79c28cc62c9ca0f34aab7f8ce21d6300c62e963d97051771dc9232e39f0ebe21587f
b3cdc5a359906d4b0768eea9e6099a78ba0803c3ab95b528864]]

i

2 of 2

2/15/21,10:14 PM

